APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Supreme Court of
Georgia
(June 10, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Excerpt of Trial Transcript in the
Superior Court of Dodge County, State
of Georgia
(October 11, 2016) . . . . . . . . . . . . App. 15
Appendix C O r d e r
Denying
Motion for
Reconsideration in the Supreme Court
of Georgia
(July 1, 2019) . . . . . . . . . . . . . . . App. 25

App. 1

APPENDIX A
Supreme Court of Georgia
306 Ga. 367
FINAL COPY
S19A0367
[Filed June 10, 2019]
_______________
CLARK
)
)
v.
)
)
THE STATE. )
______________ )
OPINION
BOGGS, Justice.
Following a jury trial, Arthur Lawton Clark was
convicted of felony murder predicated on possession of
a firearm by a convicted felon and aggravated assault
in connection with the shooting death of his brother-inlaw, Sonny Barlow.1 He raises the following
1

The crimes occurred on May 12-13, 2015. On June 1, 2015, a
Dodge County grand jury indicted Clark for malice murder, felony
murder predicated on aggravated assault, aggravated assault,
felony murder predicated on possession of a firearm by a convicted
felon, possession of a firearm by a convicted felon, and
manufacture of marijuana. Clark was tried in October 2016, and
a jury found him guilty of the lesser included offense of voluntary

App. 2
enumerations of error: (1) the trial court erred in
denying his motion for a new trial because the State
failed to disprove his affirmative defense of justification
based on self-defense; (2) the trial court erred in
refusing to give his requested charges on sudden
emergency and self-defense; (3) the trial court erred in
admitting into evidence documentation of his prior
conviction for aggravated cruelty to animals; and
(4) the trial court erred in admitting testimony about a
prior incident. After review, we affirm.
1. Viewed in the light most favorable to the jury’s
verdict, the record shows as follows. Clark and the
victim, Sonny Barlow, were brothers-in-law; Mr.
Barlow was married to Clark’s sister, Susan Barlow
(“Ms. Barlow”). The Barlows lived with Clark’s and Ms.
Barlow’s mother at a house on the mother’s property in
Dodge County.

manslaughter as to malice murder, as well as felony murder
predicated on aggravated assault, aggravated assault, felony
murder predicated on possession of a firearm by a convicted felon,
and possession of a firearm by a convicted felon. The trial court
entered an order of nolle prosequi as to the manufacture of
marijuana charge and sentenced Clark to life imprisonment for
felony murder predicated on possession of a firearm by a convicted
felon, plus 20 years to serve concurrently for aggravated assault.
The trial court noted that the voluntary manslaughter and felony
murder predicated on aggravated assault convictions were vacated
by operation of law and merged the possession of a firearm by a
convicted felon count with the corresponding felony murder count.
On October 17, 2016, Clark filed a motion for new trial, which he
amended on December 1, 2017. The trial court denied his motion
on April 30, 2018. Clark filed a timely notice of appeal, and the
case was docketed in this Court for the term beginning in
December 2018 and submitted for decision on the briefs.

App. 3
In 2012, Clark pushed Ms. Barlow against a door at
the Barlow residence and hit her three times. Ms.
Barlow obtained a family violence protective order that
barred Clark from her house for 12 months. In 2013,
Clark separately was convicted and sentenced after
pleading guilty to aggravated cruelty to animals,
making him a convicted felon. In 2014, Clark obtained
a .22-caliber pistol that his mother had purchased some
years earlier. He brought the pistol to the Barlow
residence whenever he visited.
Around lunchtime on May 12, 2015, Clark went to
the Barlow residence to see his mother and to bring her
some lunch. He did not bring his gun inside because he
did not see Mr. Barlow’s vehicle at the house. Clark
returned to the Barlow residence later that evening,
hoping to visit with his mother again. When he arrived,
he saw that Mr. Barlow’s vehicle was at the house, so
he tucked his .22-caliber pistol under his shirt. Ms.
Barlow and their mother were inside, and Mr. Barlow
was outside at his dog pen.
Ms. Barlow told her mother that Clark was there to
visit, and her mother replied that she did not feel up to
the visit, so Ms. Barlow told Clark that she and her
husband each needed to take a shower and suggested
that Clark leave. Mr. Barlow then came into the house
and eventually told Clark that he needed to leave, but
Clark did not leave. Instead, he and Mr. Barlow got
into an argument with raised voices. Clark finally got
up and moved toward the back door when Mr. Barlow
pushed Clark, causing him to trip on the back door
threshold and fall onto the porch deck, hurting his leg.
When Clark got back on his feet, he and Mr. Barlow

App. 4
continued arguing, and Ms. Barlow again asked Clark
to leave. Clark and Mr. Barlow eventually moved off
the porch toward Clark’s car. They were no longer
arguing, and it appeared that Clark was going to leave
peacefully, when Clark suddenly reached under his
shirt, pulled out his pistol, and shot Mr. Barlow twice.
Clark got in his car and drove away, throwing out the
gun on the side of a road. Ms. Barlow rushed to dial
911. In the back yard of the Barlow residence, law
enforcement officers found Mr. Barlow, who appeared
to have been shot twice in the chest, and two .22caliber shell casings.
Clark testified at trial and admitted that he shot
Mr. Barlow multiple times and that Mr. Barlow did not
have a gun. No witness substantiated Clark’s claim
that Mr. Barlow was about to attack him. Forensic
evidence was consistent with Ms. Barlow’s testimony
that Clark and Mr. Barlow were standing three or four
feet apart when Clark fired. The two chest wounds,
including the one fatal wound, showed no stippling or
powder burns, and the medical examiner testified that
they were inflicted at an indeterminate or distant
range. Further, an agent of the Georgia Bureau of
Investigation who responded to the crime scene
testified that he saw no sign of a struggle. Another GBI
agent who photographed Clark after his arrest testified
that he did not notice or document any injuries to
Clark’s neck, chest, or rib area. He also testified that
nothing on Clark’s clothes at the time of arrest
indicated any kind of a struggle or physical altercation.
After receiving a “Be On the Look Out” notification
for Clark’s car, a Dodge County Sheriff’s Deputy saw

App. 5
Clark’s car, performed a traffic stop, searched Clark,
and found no weapon. Officers later searched Clark’s
residence, pursuant to a search warrant, and recovered
a label and price tag for a .22-caliber semi-automatic
pistol and .22-caliber ammunition that appeared to
match the shell casings recovered from the crime scene.
We conclude that the evidence presented at trial
and summarized above was sufficient to enable a
rational trier of fact to find Clark guilty of the crimes
of which he was convicted beyond a reasonable doubt.
See Jackson v. Virginia, 443 U. S. 307, 319 (III) (B) (99
SCt 2781, 61 LE2d 560) (1979). The jury was free to
reject Clark’s testimony that he shot Mr. Barlow in
self-defense, believing that Mr. Barlow was about to
attack him. And Ms. Barlow testified that she saw
Clark, without provocation, draw his weapon and shoot
Mr. Barlow, who was unarmed. See OCGA § 24-14-8
(“The testimony of a single witness is generally
sufficient to establish a fact.”); Dean v. State, 273 Ga.
806, 807 (1) (546 SE2d 499) (2001) (“This Court does
not reweigh evidence or resolve conflicts in testimony;
instead, evidence is reviewed in a light most favorable
to the verdict, with deference to the jury’s assessment
of the weight and credibility of the evidence.”).
2. Clark contends that the trial court erred in
refusing to give his requested instructions on sudden
emergency and self-defense. Specifically, Clark
requested that the trial court instruct the jury, “Where
upon a sudden emergency, one suddenly acquires
actual possession of a pistol for the purpose of self
defense, if you find that to have been the purpose, then
he would not be in violation of any law prohibiting a

App. 6
felon from being in possession of a firearm.” Cauley v.
State, 260 Ga. 324, 326 (2) (c) (393 SE2d 246) (1990).
Clark also requested that the trial court instruct the
jury: (1) that “[a] felon would not be in violation of the
firearm possession statute if he was found to be in
possession of a firearm for purpose of self-defense”;
(2) that “where the Defendant acts in self-defense, the
jury is not permitted to find him guilty of the
underlying felony, and accordingly [he] cannot be found
guilty of felony murder”; and (3) that “[a] convicted
felon is justified in possessing a weapon if he
reasonably believed it was the only way to prevent his
own imminent death or bodily injury.”
Clark did not object to the charge as given, however,
so we review only for plain error. See OCGA § 17-858 (b). In State v. Kelly, 290 Ga. 29 (718 SE2d 232)
(2011), this Court adopted the federal plain error
standard, which has four prongs:
First, there must be an error or defect —
some sort of deviation from a legal rule — that
has not been intentionally relinquished or
abandoned, i.e., affirmatively waived, by the
appellant. Second, the legal error must be clear
or obvious, rather than subject to reasonable
dispute. Third, the error must have affected the
appellant’s substantial rights, which in the
ordinary case means he must demonstrate that
it affected the outcome of the trial court
proceedings. Fourth and finally, if the above
three prongs are satisfied, the appellate court
has the discretion to remedy the error —
discretion which ought to be exercised only if the

App. 7
error seriously affects the fairness, integrity or
public reputation of judicial proceedings.
(Citation and punctuation omitted; emphasis in
original.) Id. at 33 (2) (a).
Here, there was no clear or obvious error. A charge
on sudden emergency may be appropriate when a
defendant, who is on trial for felony murder predicated
on possession of a firearm by a convicted felon,
otherwise could not successfully assert self-defense
because he was engaged in the felony of possessing a
firearm at the time that he was defending himself.
Austin v. State, 300 Ga. 889, 891 (2) (799 SE2d 222)
(2017). However, “[a] trial court does not err by failing
to give a jury charge where the requested charge is not
adjusted to the evidence presented at trial.” (Citation
and punctuation omitted.) Id. Thus, a sudden
emergency charge is not required where the defendant
“did not suddenly acquire actual possession of the gun
that he used to shoot [the victim] while trying to defend
himself,” but instead “already possessed [the] firearm
that he chose to use before being placed in any
situation that required him to actually defend himself.”
Id. at 891-892 (2).
Clark “provided no evidence of any sudden
emergency that caused him to suddenly possess a
firearm to defend himself.” Austin, 300 Ga. at 891-892.
Clark’s own testimony was that he acquired the .22caliber pistol that he used to shoot Mr. Barlow a year
before the shooting, and he kept it hidden except to
bring it with him whenever he visited his mother and
Mr. Barlow was present. Indeed, on the day of the
incident, intending to go to the Barlow residence to

App. 8
visit his mother, Clark put the pistol in his car. And,
when he saw Mr. Barlow’s vehicle in the driveway, he
chose to tuck the pistol under his shirt and carry it
inside the home. Therefore, the evidence showed that
Clark already possessed the pistol before he was
confronted with any situation that would require him
to defend himself, and the trial court’s refusal to give
Clark’s requested instructions on sudden emergency
was not a clear or obvious error. See Kelly, 290 Ga. at
33 (2) (a).
As for Clark’s requested charges regarding selfdefense, the trial court provided an extensive
instruction on justification, including self-defense,
which closely tracked the Georgia Suggested Pattern
Jury Instructions. The trial court instructed the jury on
the State’s burden to disprove the affirmative defense
beyond a reasonable doubt; the reasonable belief
necessary to justify self-defense by use of force,
including the use of deadly force; and when the jury
has a duty to acquit based on justification. The trial
court also explained that “[t]he fact that a person’s
conduct is justified is a defense for prosecution of any
crime based on that conduct.” These instructions
adequately covered justification, including self-defense,
and the State’s burden of proof. The trial court’s
charge, therefore, was not clear or obvious error. See
Kelly, 290 Ga. at 33 (2) (a); Morris v. State, 303 Ga.
192, 198-199 (V) (B) (811 SE2d 321) (2018).
3. Clark argues that the trial court erred by
admitting into evidence State’s Exhibit 65, the final
disposition and sentence on his 2013 felony conviction
for aggravated cruelty to animals. The exhibit included

App. 9
the indictment, a form showing Clark’s change of plea
from not guilty to guilty, and a sheet reflecting the
entry of a judgment of conviction and sentence for that
crime. Clark contends that the admission of the exhibit
was error because he had stipulated to the conviction
for purposes of the felony murder charge and the
danger of the jury using the evidence as inadmissible
character evidence outweighed its probative value.
Clark makes no claim of harm stemming from the
exhibit’s admission beyond the fact that it references
his prior felony. The only information given in the
exhibit regarding Clark’s felony conviction is that he
was charged with aggravated animal cruelty for
“knowingly and maliciously caus[ing] death to a dog
belonging to John Woodard, an animal[,] by shooting
him,” and that Clark pled guilty to that offense. In
contrast, Clark and a rebuttal witness testified
extensively and without objection about the prior felony
offense in far greater detail than that contained in the
exhibit.
The admission of this exhibit was discussed
repeatedly at trial. Initially, during the State’s case-inchief, the State sought to introduce the exhibit to prove
the charge of possession of a firearm by a convicted
felon. Clark stipulated that he was a convicted felon at
the time of the shooting, and the trial court did not
admit the exhibit at that time. The State later took
issue with the trial court’s refusal to admit the exhibit,
and Clark argued that, because he stipulated to being
a convicted felon, the specific details of the prior
conviction were impermissible character evidence. The

App. 10
trial court again ruled the exhibit inadmissible, but
noted that it could become admissible at a later time.
After the State rested, Clark elected to testify.
During cross-examination, the State asked Clark
whether he and the State had entered into a
stipulation that he was a convicted felon. Clark agreed
and then volunteered that he previously pled guilty to
aggravated cruelty to animals. Clark then testified in
detail about the facts of the incident that led to that
conviction. Specifically, Clark testified that he walked
up to his neighbor’s truck and told the neighbor that he
was going to shoot the neighbor’s dog, which was in the
back of the truck; that the neighbor’s only response
was, “well, I’m sorry”; and that he then shot the
neighbor’s dog. In rebuttal to Clark’s testimony the
State called John Woodard, the neighbor, who testified
that he was parked on the side of the road with his dog
in the back of his truck when Clark pulled up beside
him in the street and got out of his vehicle. According
to Woodard, Clark said, “your dog killed my cat,” and
then pulled out a gun and shot Woodard’s dog twice.
Woodard testified that Clark then said, “okay[,] bud,
we’re even,” and then got back into his vehicle and sped
off. Clark’s counsel did not object to the State’s
questioning of Clark or to Woodard’s testimony, and
Clark does not enumerate as error the admission of
their testimony. The propriety of this testimony is
therefore not before this Court for consideration.
Thereafter, the State again moved to admit into
evidence the exhibit containing the documentation of
Clark’s guilty plea and judgment of conviction for
aggravated animal cruelty for impeachment purposes

App. 11
only. The trial court admitted the exhibit over Clark’s
objection purportedly for the limited purpose of
attacking Clark’s credibility. But even if the trial court
erred in allowing the exhibit into evidence, any error
was harmless. See Jones v. State, 305 Ga. __ (3)
(__ SE2d __) (2019) (explaining that “[a]
nonconstitutional error is harmless if it is highly
probable that the error did not contribute to the
verdict” (citation and punctuation omitted)). The
unobjected-to testimony concerning the felony was far
more damaging and detailed in content than was the
reference to the felony in the exhibit. In addition, the
other evidence of Clark’s guilt was strong, as discussed
in Division 1 above. Thus, we conclude that it is highly
probable the outcome of the trial would have been no
different had the exhibit not been introduced. See id. at
657 (3) (any error in admission of defendant’s prior
conviction was harmless when defendant admitted that
he shot victim, no witnesses substantiated defendant’s
self-defense claim, police found no gun near victim’s
body, and forensic evidence strongly suggested only one
gun was fired at the scene).
4. Clark next contends that the trial court erred in
allowing Ms. Barlow to testify about a prior bad act,
specifically, the 2012 incident in which Clark pushed
her against a door and hit her. Because the incident did
not occur between Clark and the victim, Clark argues
that the testimony was irrelevant and prejudicial. The
District Attorney argues that our review of this issue is
limited to plain error because Clark did not object to
the testimony about that prior bad act. However, the
trial court ruled definitively at a pretrial hearing that
evidence of the act would be admissible, so Clark was

App. 12
not required to object to the evidence at trial to
preserve his claim of error for appeal. See Anthony v.
State, 298 Ga. 827, 831-832 (4) (785 SE2d 277) (2016).
Therefore, this issue is entitled to ordinary appellate
review for abuse of discretion. See Booth v. State, 301
Ga. 678, 682 (3) (804 SE2d 104) (2017).
Evidence of a prior bad act cannot be admitted to
prove the character of a person, but it may “be
admissible for other purposes, including, but not
limited to, proof of motive, opportunity, intent,
preparation, plan, knowledge, identity, or absence of
mistake or accident.” OCGA § 24-4-404 (b) (“Rule 404
(b)”). The Attorney General argues that Rule 404 (b)
does not apply here because the evidence was
“intrinsic.” We agree.
“The limitations and prohibition on ‘other acts’
evidence set out in [Rule 404 (b)] do not apply to
‘intrinsic evidence.’” (Footnote omitted.) Williams v.
State, 302 Ga. 474, 485 (IV) (d) (807 SE2d 350) (2017).
Evidence is intrinsic when it is “(1) an uncharged
offense arising from the same transaction or series of
transactions as the charged offense; (2) necessary to
complete the story of the crime; or (3) inextricably
intertwined with the evidence regarding the charged
offense.” (Citations and punctuation omitted.) Id.
Evidence that explains the context of the crime is
admissible if it “forms an integral and natural part of
an account of the crime, or is necessary to complete the
story of the crime for the jury.” (Citations and
punctuation omitted.) Id. at 485-486 (IV) (d).
The evidence must also meet the balancing test of
OCGA § 24- 4-403, which says, “Relevant evidence may

App. 13
be excluded if its probative value is substantially
outweighed by the danger of unfair prejudice, confusion
of the issues, or misleading the jury or by
considerations of undue delay, waste of time, or
needless presentation of cumulative evidence.” See
Williams, 302 Ga. at 485 (IV) (d). Here, the trial court
did not abuse its discretion in admitting the evidence
regarding the prior incident between Clark and Ms.
Barlow because it was intrinsic evidence. The
testimony regarding Clark’s hitting and pushing Ms.
Barlow at her home in 2012 was necessary to complete
the story of the crime for the jury. It provided context
for the charged offenses to explain why the Barlows
were persistent with their requests that Clark leave;
why Mr. Barlow did not want Clark at his residence;
why Mr. Barlow did not feel comfortable taking a
shower, leaving Clark alone in the room with his wife;
and why Mr. Barlow followed Clark outside of the home
to ensure that he left. Because the evidence was
intrinsic, it was outside the reach of Rule 404 (b). See
Williams, 302 Ga. at 485 (IV) (d). And we cannot say
that the trial court abused its discretion in finding that
the probative value of the evidence was not
substantially outweighed by the danger of unfair
prejudice.2 See OCGA § 24-4-403. Therefore, the trial
court did not err in admitting the evidence.
Judgment affirmed. All the Justices concur.

2

As we have noted previously, “the exclusion of evidence under
[OCGA § 24-4-403] is an extraordinary remedy which should be
used only sparingly.” (Citation, punctuation and footnote omitted.)
Olds v. State, 299 Ga. 65, 70 (2) (786 SE2d 633) (2016).

App. 14
Decided June 10, 2019 – Reconsideration denied
July 1, 2019. Murder. Dodge Superior Court. Before
Judge Wall.
Thomas F. Jarriel, for appellant.
Timothy G. Vaughn, District Attorney, Christopher
C. Gordon, Assistant District Attorney; Christopher M.
Carr, Attorney General, Patricia B. Attaway Burton,
Deputy Attorney General, Paula K. Smith, Senior
Assistant Attorney General, Michael A. Oldham,
Assistant Attorney General, for appellee.

App. 15

APPENDIX B
IN THE SUPERIOR COURT OF DODGE COUNTY
STATE OF GEORGIA
CASE NO.: 15R-8538
PRE-TRIAL MOTIONS
VOIR DIRE
[Dated October 11, 2016]
______________________________
STATE OF GEORGIA
)
)
vs.
)
)
ARTHUR LAWTON CLARK
)
_____________________________ )
The transcript of the proceedings before The
Honorable Judge Sarah F. Wall, reported by Jennifer
Anderson, Certified Court Re porter, on the 11th day of
October, 2016.
APPEARANCES:
FOR THE STATE:
MR. CHRISTOPHER GORDON
ASSISTANT DISTRICT ATTORNEY
OCONEE JUDICIAL CIRCUIT
Post Office Box 1027
Eastman, Georgia 31023-1027

App. 16
FOR THE DEFENDANT:
MR. LEE CANNON
THE CANNON LAW FIRM
30 Railroad Street
McRae, Georgia 31055
Jennifer Anderson, CCR, CVR
Official Court Reporter
1909 Scotland Road
Dublin, Georgia 31021
(478) 290-8373
[p.2]
PROCEEDINGS
10:41 am.
THE COURT: All right, we’re here on -- to complete
our motions hearing the Clark case, 15R-8538. Let me
first address counsel, there was -- the Court received
via email from both Judge Mullis’s office and from the
Clerk’s Office, a copy of a motion that was filed, I
believe, on Friday of last week -- that being last Friday,
after we were here with motions. It was what is
entitled a motion to recuse and an affidavit, and it was
filed pro se by Mr. Clark, and it was dated October 3,
2016. And, again, I received a copy of this on Friday,
the 7th. And it was addressed to Chief Judge Mullis,
and was not served upon myself, except for by Judge
Mullis forwarding it to my office and the Clerk
forwarding it to my office. Let me say, that motion to
recuse, is denied by the Court. I don’t think I need to
hear anything from either the State or Mr. Cannon, as
defense counsel. Mr. Clark is represented by counsel,

App. 17
so it would be improper for him to file pro se motions,
when he’s represented by counsel. The Court finds that
it was improperly filed, and that also, in addition, Mr.
Clark, of course, failed to present a valid basis for
recusal. So the Defendant’s motion is dismissed and the
Court is entering an order to that effect, on this
[p.3]
date and will, of course, provide -- I have a written
order, and I will provide a copy of that to both the State
and to Mr. Cannon. Let me inquire, is there anything
that either of you, the State or Mr. Cannon, wishes to
say in response to that?
MR. GORDON: No, Your Honor.
MR. CANNON: No, Your Honor.
THE COURT: All right. And then the other matter
that we need to take up this morning, is on -- I think
the State had provided notice to the defense, and we’re
here to take up those issues regarding the similar
transaction.
MR. GORDON: Yes, Your Honor.
THE COURT: All right.
MR. GORDON: Your Honor, just by way of proffer
with the first notice of similar transaction, that would
be the underlying -- the case the defendant is under
convicted felon status for. I would expect Mr. Jeff
Woodard to testify that he was near the defendant’s
residence in his truck, had a passenger in the car, a dog
in the back of the truck and Mr. Clark abruptly

App. 18
approached his truck, produced a firearm and shot and
killed the dog in the back of the truck.
MR. CANNON: John.
MR. GORDON: John Woodard. I said Jeff. I
apologize. Jeff is his son, I believe. This is offered, Your
Honor,
[p.4]
in 24-4-404(b) for a variety of reasons. This was a -very similar to the case at hand. This is going to be, I
think, a -- the evidence would show an instance where
the defendant had a quarrel with somebody, lost his
temper, produced a firearm, possibly the same caliber,
I’m not sure and shot and killed, in that case, an
animal, but in close proximity to two individuals. And
in that case, the Defendant also attempted to assert a
self-defense, or a defense of property claim, under the
same set of facts.
And, Your Honor, this is offered to show motive,
possession of a firearm, producing it in such a manner,
opportunity, intent, preparation, planned knowledge,
identity and absence of mistake of accident. Notice was
provided. Under the second instance, Your Honor, that
is offered to show -- that’s an altercation with Susan
Barlow that Mr. Clark was arrested for. The charges
were ultimately dismissed, and I have some
photographs that I think I produced to the Defendant
last week -- yeah, last week. But what that would be
offered for, Your Honor, is more of a prior difficulties
between the victim and the Defendant, still under 24-4404(b). But, I would note that the requirements for
such evidence are even less strenuous than the similar

App. 19
transaction notice. Notice is not even required for that
type of incident, but the State furnished it out of an
abundance of caution. I cited several cases
[p.5]
to you last week, Your Honor, that just talked about
the inclusive nature of this rule and I would ask to be
allowed to present the similar transaction notice -- or
the similar transaction of the dog, as part of the case in
Chief, and I would ask to be allowed to present the
prior difficulties between the victim and the defendant,
as part of the victim’s wife’s testimony in the State’s
case in chief, again, to show the factors set forth in 244-404(b).
THE COURT: Mr. Cannon?
MR. CANNON: Your Honor, under -- again, this is
another part of the law that’s seen some change, and
basically, this is another one of those like we argued
last week, where we have to kind of go to Federal law
to get some idea of what to do with this, since the State
adopted that. But, basically, what has been said is the
-- the whole bent of mind thing is out, and that was the
whole point. I think Georgia was the only state that
ever had any type of history of arguing that things
could come in to show bent of mind of the defendant,
and that’s pretty much gone with these new rules. So
basically -- and another thing is, if you look at the
federal case law, it seems like that, even though
Georgia has kept the name, similar transactions, that’s
a little bit of a misnomer, because similarity really
doesn’t have a whole lot to do with it anymore and the
example that’s given is basically, if you

App. 20
[p.6]
have a case that where somebody robbed a liquor store,
and the prosecution wants to offer evidence that the
accused purchased cocaine an hour after the robbery,
then the courts have found that that’s okay, even
though it’s not similar, because it tends to show
something besides propensity. It shows, okay, this
person wanted to buy cocaine, so they robbed a liquor
store and the two kind of go hand in hand as to what
the motive could have been for robbing the liquor store.
So they’re not even similar. So that whole thing has
kind of been thrown out the window too.
But the case that I want to point out is U.S. versus
Spikes, as sort of the rule that eveybody’s looking to as
far as handling these cases. It’s 158 Federal 3rd 913,
6th Circuit, 1998. And, basically, it says discriminating
between the illegitimate propensity use of evidence of
the accused of the crimes of acts and the legitimate
404(b) use, it helps if one first isolates the illegitimate
use by describing how the evidence impugns the
accused character, in a way that suggests the accused
has a propensity to commit the crime charged. Next,
asks what other relevance the evidence has, if any,
apart from propensity use. And my argument here is,
that the State should not be allowed to use the -- first
let’s start with the conviction, or the pulling the
firearm on Mr. Woodard. There’s no other -[p.7]
there’s no other use of that, than propensity. There’s
nothing it’s not like the liquor store, it’s not like the
cocaine. There’s no -- it’s not to prove motive. It’s not to

App. 21
prove anything like that. All -- the whole purpose in
getting that in, in a chief case, would be propensity,
which this case law and the federal rules specifically
says that’s what you can’t use it for.
So I think t hat it fails that test, as far as coming in
on the case. And I know rebuttal’s a whole different
thing, but we don’t know what’s going to happen at
trial. But I would say that it shouldn’t be allowed to
come in, in the case in chief. And as far as the second
thing, the alleged physical assault on Susan Barlow, I
would argue that that shouldn’t come in, in the case in
chief, under prior difficulties between the defendant
and the victim, because Susan Barlow is not the victim.
The argument was, okay, this was a prior difficulty
between -- this was a difficulty between Susan Barlow,
the wife of the alleged victim, and the defendant, not
between the alleged victim and the defendant. So our
argument is, it shouldn’t come in, in the case in chief.
If we open the door, we open the door, at some point
and time. But we don’t know what’s going to happen in
trial, and we don’t know that we’ll ever open the door.
THE COURT: Anything further?
[p.8]
MR. GORDON: Just to point out that 24-4-404 does
include, you know, the language of -- it may be -- it
may, however, be admissible for other purposes,
including, but not limited to, the factors given. That’s
a deviation from the federal statute It tends to show
the Georgia statute is more inclusive. And just to say
that, I would ask Your Honor consider the facts that a

App. 22
physical altercation with a spouse could be considered
prior difficulties with that victim’s spouse.
THE COURT: All right. I will take break. We’re
going to be here all morning, and I’ll come back out in
a few minutes and I have other matters to handle as
well, so I’ll get you a ruling on this as well. Let me first
inquire, now there is no dispute, is there, regarding the
prior conviction of Mr. Clark, relating to the dog
incident? Is the defense disputing that that’s
admissible in the case in chief? Not the facts
surrounding the conviction.
MR. CANNON: No, just the fact that there is a
conviction.
THE COURT: The fact that there is a conviction. I
just want the record to be clear.
MR. CANNON: No, Your Honor.
THE COURT: Okay. That would of course go -- if
there is an introduction in the case in chief, as to the
[p.9]
conviction, it would go in at -- with limiting instruction
chat it relates only as to the possession of a firearm by
a convicted felon, as to that count.
MR. CANNON: Correct.
THE COURT: Okay. Anything else?
MR. CANNON: But not the facts.

App. 23
THE COURT: But not the facts. That’s what I’ll rule
on in just a moment, regarding the facts. All right.
We’ll take a few minutes.
(Whereupon, there was a recess in the proceedings
from 10:53 to 11:50 a.m.)
THE COURT: We’ll come back to order on the Clark
matter. After consideration of the State’s proffer and
the arguments presented, by both the State and the
Defense, as relates to the similar transaction
paragraph, identified as number one, regarding the
Woodard and the shooting of the dog incident, the State
is not going to allow that -- the Court is not going to
allow the State to get in that in its case in chief. I find
that there’s been no demonstration that the prior act
proves any aspect of the current acts charged. So it will
not be permitted in the case in chief.
As to paragraph number two regarding the alleged
prior difficulties relating to Susan Barlow, the Court
does find that that would be admissible and could be
presented by the State in its case in chief, or as the
State deems
[p.10]
appropriate. Any other matters that we need to take
up?
MR. GORDON: No, Your Honor. Not from the State.
MR. CANNON: No, Your Honor.
THE COURT: All right. I will see you gentlemen
back at one. Are you going to be prepared, depending

App. 24
on how long it takes in jury selection, for openings this
afternoon?
MR. GORDON: The State is.
MR. CANNON: Yes, Your Honor.
THE COURT: Okay. Just depends on how long it
takes with regard to jury selection and for this jury -for us to seat the jury. If it’s -- I’ll just go ahead and let
you know, if it’s 4:00 or 4:30, before we get a jury, I’m
not going to keep them here today until 5:30 or 6:00 for
opening statements. We’ll come back tomorrow and do
that. Now, you gentlemen have indicated two to three
days, is that correct, excluding jury selection?
MR. GORDON: Yes, ma’am.
MR. CANNON: Yes, Your Honor.
THE COURT: All right. Then I will see you back at
1:00. And when you gentlemen come back and get your
items set up, if you will come in chambers we will go
through the jury list with the Clerk to see who’s
present and who has been excused or did not appear
and then we’ll come out and do the voir dire.
***

App. 25

APPENDIX C
SUPREME COURT OF GEORGIA
Case No. S19A0367
[Filed July 1, 2019]
______________________________
ARTHUR LAWTON CLARK
)
)
v.
)
)
THE STATE.
)
_____________________________ )
The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
Upon consideration of the Motion for
Reconsideration filed in this case, it is ordered that it
be hereby denied.
All the Justices concur.
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/

, Clerk

